                                                                         OFFICE OF JOB CORPS

U.S. Department of Labor
                           Office of Inspector General—Office of Audit




                                                                         TRANSFER OF JOB CORPS PROGRAM
                                                                         STRENGTHENED PROCUREMENT
                                                                         PROCESSING BUT IMPROVEMENTS ARE
                                                                         NEEDED TO ENSURE FAIR AND OPEN
                                                                         COMPETITION




                                                                                          Date Issued:   September 30, 2008
                                                                                          Report Number: 04-08-003-01-370
Department of Labor                                    September 2008
Office of Inspector General
Office of Audit                                        WHAT OIG FOUND

                                                       While the transfer of the Job Corps program from
BRIEFLY…                                               ETA to OSEC strengthened the Job Corps
                                                       procurement and contracting practices,
Highlights of Report Number 04-08-003-01-              improvements are needed to ensure contracts are
370, Transfer of Job Corps Program                     competitively awarded and services are obtained at
Strengthened Procurement Processing But                a reasonable cost.
Improvements Are Needed to Ensure Fair
and Open Competition, to the Deputy                    With the transfer, OSEC implemented a prior OIG
Secretary of Labor, issued September 30,               recommendation to separate Job Corps
2008                                                   procurement functions from program functions. In
                                                       addition, our examination of 34 contracts, 18
                                                       originated by ETA and 16 by OASAM, disclosed
WHY READ THE REPORT                                    nine (26 percent) with deficiencies in the
                                                       processing of the awards and/or modifications.
On December 30, 2005, Congress enacted Public          Specifically, ETA in 7 of 18 (39 percent) contracts
Law 109-149, directing the Secretary of Labor to       and OASAM in 2 of 16 (13 percent) contracts could
transfer Job Corps program from the Employment         not demonstrate they always followed the Federal
and Training Administration (ETA) to the Office of     Acquisition Regulation and Department of Labor
the Secretary (OSEC). The transfer was                 (DOL) procurement procedures.
intended to provide Job Corps greater
independence and opportunity for increased             WHAT OIG RECOMMENDED
efficiency in administering the Job Corps
program. As a result of the transfer, responsibility   We recommended the Deputy Secretary of Labor
for providing contract support moved from ETA to       ensure that:
the Office of the Assistant Secretary for
Administration and Management (OASAM).                  •   The Assistant Secretary for Administration
                                                            and Management takes steps to ensure
                                                            management oversight of contract award and
WHY OIG DID THE AUDIT
                                                            modification processing is conducted and to
                                                            provide staff training to ensure Federal
We conducted a performance audit to determine               acquisition and DOL procedures are
what impact has the transfer of the Job Corps               appropriately followed.
program from ETA to OSEC had on Job Corps               •   Agencies seek Procurement Review Board’s
procurement and contracting practices. Our audit            recommendation and Chief Acquisition
covered July 1, 2005, through September 30,                 Officer’s approval for ratification of
2007.                                                       unauthorized commitments.

READ THE FULL REPORT                                   The National Director of Job Corps had no
                                                       comments on the draft report. The Deputy
To view the report, including the scope,               Assistant Secretary for Employment and Training
methodologies, and full agency response, go to:        stated that ETA is actively taking steps to improve
http://www.oig.dol.gov/public/reports/oa/2008/04-      performance in its contracting operations. Lastly,
08-003-01-370                                          the Deputy Assistant Secretary for Administration
                                                       and Management disagreed with our finding that
                                                       cited a lack of proper justification for a sole source
                                                       contract award, but agreed with our
                                                       recommendations.
                                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary....................................................................................................................1

Assistant Inspector General’s Report ...................................................................................5

Exhibits ........................................................................................................................................15

           Exhibit 1 ............................................................................................................................17

Appendices.................................................................................................................................19

           Appendix A Background.................................................................................................21

           Appendix B Objective, Scope, Methodology, and Criteria........................................23

           Appendix C Acronyms and Abbreviations...................................................................27

           Appendix D Auditees’ Responses ................................................................................29




                                                                                                        Job Corps Procurement Program
                                                                                                           Report No: 04-08-003-01-370
                  U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                       Job Corps Procurement Program
                                          Report No: 04-08-003-01-370
                                                                   U.S. Department of Labor – Office of Inspector General




Executive Summary
The purpose of the Job Corps Program is to assist eligible youth who need intensive
education and training services. The program was appropriated nearly $1.6 billion in FY
2007, much of which was expended through contracts with private companies.
Contractors operate 94 Job Corps centers nationwide and the Departments of Interior
and Agriculture operate 28 centers through inter-agency agreements.

On December 30, 2005, Congress enacted Public Law (PL) 109-149, directing the
Secretary of Labor to transfer the Job Corps program from the Employment and
Training Administration (ETA) to the Office of the Secretary (OSEC). The transfer was
intended to provide Job Corps greater independence and opportunity for increased
efficiency in administering the Job Corps program. As a result of the transfer, the
responsibility for providing contracting support to Job Corps moved from ETA to the
Office of the Assistant Secretary for Administration and Management (OASAM).

Our audit objective was to answer the following question:

          What impact has the transfer of Job Corps program from ETA to OSEC had on
          Job Corps procurement and contracting practices?

Results

The transfer of the Job Corps program from ETA to OSEC strengthened Job Corps
procurement and contracting practices through the separation of procurement and
program functions. In addition, fewer deficiencies were noted in selected contract
awards and procurement actions after the transfer. However, improvements are
needed to ensure contracts are competitively awarded and services are obtained at a
reasonable cost. Our audit of 34 contracts, 18 originated by ETA and 16 by OASAM,
disclosed nine (26 percent) to have deficiencies in the processing of the awards and/or
modifications. Specifically, ETA in 7 of 18 (39 percent) contracts and OASAM in 2 of 16
(13 percent) contracts could not demonstrate they always followed the Federal
Acquisition Regulation (FAR) and Department of Labor (DOL) procurement procedures.

Seven1 ETA originated contracts totaling more than $110 million did not follow proper
procurement procedures, as described below:

     • For one contract modification totaling $3.1 million, the Contracting Officer (CO) did
       not obtain the required review by the Department’s Procurement Review Board
       (PRB) nor Chief Acquisition Officer’s (CAO) approval.

     • ETA modified four contracts without proper approval and justification that resulted
       in cost increases ranging from 9 to 224 percent above the contract ceiling price.
1
 One of ETA’s contracts had two deficiencies, which increased the number of deficiencies to eight.

                                                                                           Job Corps Procurement Program
                                                               1                              Report No: 04-08-003-01-370
                                                 U.S. Department of Labor – Office of Inspector General


     The improper modifications resulted from the award of a contract type that did not
     provide for a contract ceiling price, inadequate cost justifications, and the lack of
     proper approval.

   • Three contracts lacked necessary documentation, such as technical scoring sheets
     or a post award announcement, to support that the contracts were properly
     awarded.

These deficiencies resulted from a control environment that did not provide adequate
management oversight to ensure adherence to the FAR and DOL procedures and the
lack of adequate staff training in the awarding of the contracts and in the processing
procurement actions.

OASAM could not demonstrate that it followed the FAR and DOL procurement
procedures in awarding two contracts. OASAM awarded one sole source contract for
approximately $2.4 million for a national call center, citing “only one responsible source
will satisfy agency requirements,” even though Job Corps indicated from its market
research that there were 18 other capable contractors who could perform the work. In
addition, OASAM awarded another contract for $1.5 million but was unable to provide
current cost analysis documentation. We attributed the deficiencies to the lack of
management oversight.

Recommendations

We recommend that the Deputy Secretary of Labor ensure that:

   1. The Assistant Secretary for Administration and Management takes steps to:

       a) ensure management oversight of contract award and modification
       processing is conducted, and

       b) provide staff training to ensure federal acquisition and DOL procedures are
       appropriately followed.

   2. Agencies seek Procurement Review Board’s recommendation and Chief
      Acquisition Officer’s approval for ratification of an unauthorized commitment.


Agencies Responses

The National Director of Job Corps stated that Job Corps had no response to the draft
report.

The Deputy Assistant Secretary for Employment and Training acknowledged that ETA
has areas of concern in its contracting operations and stated that ETA is actively taking
steps to improve its performance.


                                                                      Job Corps Procurement Program
                                             2                           Report No: 04-08-003-01-370
                                                U.S. Department of Labor – Office of Inspector General


The Deputy Assistant Secretary for Administration and Management (DASAM)
concurred with the finding related to the lack of current cost analysis. However, the
DASAM disagreed with the finding related to the lack of proper justification for a sole
source contact award. The DASAM stated that OASAM took the appropriate actions
under the Federal and DOL procurement rules to execute the sole source award and
prevent a break in critical services for the Job Corps program. However, the DASAM
concurred with OIG’s recommendations and stated that OASAM has placed increased
emphasis on DOL’s procurement policy/oversight function.

OIG Conclusion

We do not disagree with OASAM’s explanation regarding the McNeil contract and the
need to avoid a service disruption at the Job Corps National Call Center. However,
adequate planning and management oversight could have prevented this situation from
occurring.

Although the DASAM disagreed with one of our two findings, the DASAM agreed with
our recommendations. Therefore, our recommendations remain unchanged.

See Appendix D for the agencies’ complete responses to our draft report.




                                                                     Job Corps Procurement Program
                                            3                           Report No: 04-08-003-01-370
                    U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                         Job Corps Procurement Program
                4                           Report No: 04-08-003-01-370
                                                                    U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                    Office of Inspector General
                                                            Washington, D.C. 20210


September 30, 2008

                                   Assistant Inspector General’s Report

Howard M. Radzely
Deputy Secretary
U.S. Department of Labor
200 Constitution Ave, N.W.
Washington, DC 20210

We conducted a performance audit of the Office of Job Corps (Job Corps) procurement
process at the request of the Secretary of Labor. The audit focused on contract awards
both before and after the transfer of the Job Corps program from the Employment and
Training Administration (ETA) to the Office of the Secretary (OSEC).

On March 30, 2006, the Secretary of Labor transferred Job Corps from the ETA to the
OSEC.2 Within the OSEC, the Office of the Assistant Secretary for Administration and
Management (OASAM) oversees the procurement and contracting practices.

Our audit objective was to answer the following question:

          What impact has the transfer of Job Corps program from ETA to OSEC had on
          Job Corps procurement and contracting practices?

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

Objective – What impact has the transfer of Job Corps program from ETA to
            OSEC had on Job Corps procurement and contracting practices?

Results and Findings

The transfer of Job Corps program from ETA to OSEC strengthened Job Corps
procurement and contracting practices through the separation of procurement and
program functions. In addition, fewer deficiencies were noted in selected contract

2
  Secretary Order 09-2006 formally established the Office of Job Corps within the Office of the Secretary by delegating authority
and assigning responsibilities to the National Job Corps Director and other specified agency heads for the effective administration
of the Job Corps program.

                                                                                             Job Corps Procurement Program
                                                                5                               Report No: 04-08-003-01-370
                                                                 U.S. Department of Labor – Office of Inspector General


awards and procurement actions after the transfer. However, improvements continue to
be needed to ensure contract awards are fair and competitive and services are obtained
at a reasonable cost. With the transfer, the OSEC implemented an Office of Inspector
General’s recommendation from a prior audit3 concerning the separation of Job Corps
procurement functions from program functions. We view the Secretary’s actions,
coupled with the results of this audit, as an improvement in Job Corps procurement and
contracting practices in terms of better separation of duties and a more compliance
driven approach to processing procurement actions.

We sampled 34 contracts, 18 originated by ETA and 16 by OASAM. Of the 34
contracts, nine (26 percent) have deficiencies in processing contract awards and/or
modifications. Specifically, ETA in 7 of 18 (39 percent) contracts and OASAM in 2 of 16
(13 percent) contracts could not demonstrate they always followed the FAR and DOL
procurement procedures.

                                     ETA CONTRACT DEFICIENCIES

ETA contract deficiencies included the following: (1) one contract lacked Procurement
Review Board (PRB) review and Chief Acquisition Officer (CAO) approval of a $3.1
million modification; (2) four contracts had multiple modifications executed without
proper approval and justification that resulted in cost increases ranging from 9 to 224
percent above the contract ceiling price; and (3) three contracts lacked necessary
documentation such as technical scoring sheets or a post award announcement, to
support that the contracts were properly awarded. These deficiencies resulted from a
lack of management oversight.

The Contracting Officer did not obtain the required PRB review and CAO approval
of a $3.1 million contract modification

PB Dewberry (Contract No. AE – 11045-01-30) – ETA awarded a five-year contract for
$57,367,955 to provide Architect and Engineer (A&E) support services. The contract
period was from November 6, 2000, through November 5, 2005. Although no contract
was in effect, PB Dewberry continued to provide, and Job Corps continued to accept,
services during the period November 6, 2005, through December 21, 2005. On
December 21, 2005, the Contracting Officer (CO) issued modification 16 to the contract,
increasing the dollar amount by $3,118,650 and extending the period of performance
through March 5, 2006.

The CO violated departmental policy when executing Modification 16 without first
obtaining PRB review and approval by the CAO. Modification 16 required PRB review
and CAO approval for the following reasons:

    •    The modification constituted a sole source acquisition. According to Department
         of Labor Manual Series (DLMS) 2-836.B.4, all proposed sole source acquisitions

3
Job Corps Regional Director’s Authority as Contracting Officer Raises Concerns, Audit Report No. 04-07-002-01-370, dated
March 30, 2007, page 8.

                                                                                        Job Corps Procurement Program
                                                             6                             Report No: 04-08-003-01-370
                                                 U.S. Department of Labor – Office of Inspector General


       and assistance actions over the simplified acquisition threshold as defined in the
       FAR (currently $100,000) are subject to review by the PRB and approval by the
       CAO.

   •   The contract had expired; therefore, the CO had no authority to modify the
       contract. To continue to administer the contract, the CO needed to seek PRB
       review and approval by the CAO.

   •   The modification extended the contract beyond the 5-year maximum period of
       performance set forth in FAR Part 17.204 (e). The CO should have sought PRB
       review and approval by the CAO that the extension was necessary to protect the
       interests of the government.

By allowing PB Dewberry to continue to provide services during the period November 6,
2005, to December 21, 2005, without a valid contract in place, the CO entered into an
unauthorized commitment. Further, Modification 16 to the contract, executed without
PRB review and CAO approval, also constituted an unauthorized commitment.

An unauthorized commitment is a non-binding agreement to perform services without
the approval of the government. As set forth in DLMS 2-836, when an unauthorized
commitment does occur, the responsible official must request ratification of the
unauthorized commitment from the PRB and CAO. However, the CO did not obtain
such ratification of Modification 16 to the PB Dewberry contract.

The CO stated that she was not aware of the DLMS requirement to obtain PRB review
and CAO approval for Modification 16.

ETA modified four contracts without proper approval and justification.

These cost modifications increased the original award amount or ceiling price of the
contracts from 9 to 224 percent. The deficiencies noted in the four contracts discussed
below resulted from a control environment that did not provide adequate management
oversight to ensure adherence to FAR and DOL procedures, and a lack of adequate
staff training in the awarding of contracts and processing procurement actions. We
concluded that the substantial increases in the contract’s costs might have resulted in
Job Corps not receiving services at the most reasonable cost.

1. Options Years’ Cost Not Considered in Determining a Ceiling Price

McNeely Pigott and Fox Public Relations, LLC (Contract No. DOLF041A00002) - ETA
did not include all option years cost in determining the ceiling price of the contract. The
contract’s initial award was for $1,793,000 to provide communication support and career
development services. The period of performance was June 20, 2004, to June 19,
2005, plus three 1-year options at the government’s discretion; however, the option
years were not included in the contract as future costs and therefore, the contract did



                                                                      Job Corps Procurement Program
                                             7                           Report No: 04-08-003-01-370
                                                  U.S. Department of Labor – Office of Inspector General


not have a ceiling price. Six modifications increased the total estimated cost to
$5,802,619 (224 percent over the original contract amount).

FAR Subpart 16.601(c) – “Limitations,” states “on time and material contracts may be
used (2) only, if the contract includes a ceiling price that the contractor exceeds at his
own risk.” It further states that “the CO shall document the contract file to justify the
reasons for and amount of any subsequent change in the ceiling price.”

The CO stated that:

     ETA did not include pre-priced option year prices for any of the proposed option
     years. The contract allowed for the placement of firm fixed price or time and
     materials task orders using labor categories and ceiling rates defined in the
     contract. Order Number DOLF041A0002 should have been designated a time &
     materials type order, not a cost reimbursement labor hour type order.

     Per the terms and conditions of GSA contract No. GS-23F-0072K, the maximum
     amount per order was $1,000,000 and the minimum $6,000. . . Pursuant to FAR
     8.404, ETA awards (sic) an order that exceeded the maximum order amount. For
     orders exceeding the maximum order threshold, price reductions can be sought.
     ETA did not request price reductions, and ETA should have established the
     maximum order ceiling for each of the option years.

2. Cost increases without adequate cost justification

Minact, Inc. (Contract No. DOL – AE94014000) – received contract cost increases
without adequate cost justification. ETA awarded a contract for $37,487,758 to continue
the operation of the Memphis Job Corps Center. The contract period was May 1, 2002,
through April 30, 2007. By the end of the 5th year, 13 modifications had increased the
total contract cost to $45,742,395, an increase of $8,254,637 or 22 percent. While the
cost of the contract increased significantly, there was no modification to the Statement
of Work for additional goods or services.

FAR Subpart 43.102(b) – “Significant Cost Increase” states, “If a significant cost
increase could result from a contract modification and time does not permit negotiation
of a price, at least a maximum price shall be negotiated unless impractical.”

According to OASAM’s procurement personnel who took control of the contract after the
transfer of Job Corps program from ETA to OSEC, the $8,254,637 increase was for
operational costs due to targeted salary adjustments, and while the amount was
substantial, it was not unusual. However, our review indicated that the justifications
provided for contract cost modifications did not provide sufficient information to increase
cost under the contract. In addition, foreseeable costs not considered during the
evaluation process demonstrate the cost analysis method used was not adequate for
evaluating the reasonableness of the cost of goods and services.



                                                                       Job Corps Procurement Program
                                              8                           Report No: 04-08-003-01-370
                                                U.S. Department of Labor – Office of Inspector General


3. Fifty-Eight Unauthorized Changes Occurred Without the CO’s Approval

Rand and Jones Enterprises Co., Inc. (Contract No.DOLJ051A20011) performed
services prior to receiving approval from ETA’s CO. ETA awarded a sealed bid contract
for a firm fixed price of $5,784,887 to renovate two buildings and upgrade the HVAC
system at the Delaware Valley Job Corps Center. The contract period was January 14,
2005, through April 14, 2006. The final contract cost increased by $489,894 (9 percent)
from $5,784,887 to $6,274,781. The increase included $205,000 for work related to 58
unauthorized changes.

Rand and Jones Enterprises, Inc., submitted the 58 unauthorized changes to Job Corps
program manager January 3, 2006, just before the contract expired. FAR 43.202 –
“Change Orders,” states “Change orders shall be issued by the contracting officer
except when authority is delegated to an administrative CO.”

A Job Corps official stated:

       Because the “Monthly Status Reports” were missing factual information, neither
       the COTR nor the CO had any prior knowledge of these unauthorized change
       orders until the General Contractor (GC) asked for payment, which occurred at
       the end of the project.

We concluded the unauthorized services provided, and subsequently approved for
payment, did not receive appropriate oversight to determine whether they were
necessary and cost reasonable.

4. The CO and COTR Failed to Include the Costs to Perform a Cleanup of a Known
Contaminated Site in the Negotiation of the Contract Price

Wu and Associates, Inc. (Contract No. AE-11793-01-20) – ETA did not consider all
services needed in awarding a $5,875,000 sealed bid construction contract to construct
a building at the Wilmington Job Corps Center. Job Corps officials told us they were
aware of worksite contamination prior to the issuance of the Notice to Proceed (NTP);
however, they did not notify the contractor to provide an estimate for the cost of clean
up.

FAR 52.236-2(b) - “Differing Site Conditions,” states “The Contracting Officer shall
investigate the site conditions promptly after receiving the notice. If the conditions do
materially so differ and cause an increase or decrease in the contractor’s cost of, or the
time required for, performing any part of the work under this contract, whether or not
changed as a result of the conditions, an equitable adjustment shall be made under this
clause and the contract modified in writing accordingly.“

The COTR told us that it was oversight on part of ETA and Job Corps in not notifying
the contractor to obtain the additional estimate of cost. Because ETA and Job Corps
did not notify the contractor of the worksite contamination, Wu and Associates


                                                                     Job Corps Procurement Program
                                            9                           Report No: 04-08-003-01-370
                                                  U.S. Department of Labor – Office of Inspector General


subsequently filed a claim against DOL to recover costs resulting from work delays due
to the contamination. ETA issued modifications to extend the period of performance
and increased the contract costs by $2,698,866 (46 percent), which included the
$1,268,779 claim by Wu and Associates for a total contract price of $8,573,866.

We concluded Job Corps might have incurred excessive cost to have additional
services performed under the contract.

Three contracts lacked necessary documentation, such as technical scoring sheets or a
post award announcement, to support that the contracts were properly awarded.

Three contracts were missing either the technical scoring sheets or a post award
announcement due to poor management oversight. Consequently, we could not
validate whether the contracts were awarded fairly. FAR 4.802(a) – “Government
Contract Files” states “a contract file should generally consist of (1) the contracting
office contract file that documents the basis for the acquisition and award.” The
following required documentation was missing.

Technical Scoring Sheets Were Missing

1. McNeely, Pigott and Fox Public Relations, LLC (Contract No. DOLF041A00002) –
The contract included three 1-year options. A memo in the contract file, dated June 26,
2004, stated that three contractors were sent “request for quotes,” and a panel
evaluated the proposals and issued a score of 108.87 out of 115 percent. There were
no scoring documents in the file to show how the scores were reached. ETA’s
procurement official confirmed that the scoring sheets were missing from the contract
file.

2. WCL Associates, Inc. (Contract No. AE 12072-02-15) – ETA awarded a fixed price
A&E design contract for $1,475,000 to design a 2-story building at the Dayton Job
Corps Center. No original scoring documents were available in the contract file. During
the contract pre-award phase, the evaluation board ranked WCL Associates first with
the highest technical score of 85.6 out of 100 points. The contract was transferred to
OASAM during the transfer of the Job Corps program from ETA to OSEC. OASAM staff
stated the original scoring sheets were with the A&E support services group, P.B.
Dewberry’s office. We requested from P.B. Dewberry the original scoring sheets, but
received copies most of which were not legible. OASAM’s procurement official who
retained the contract file confirmed that the original documents were missing.

Post Award Announcement Was Missing

3. Du Bose & Associates, Inc. (Contract No. DOLJ041A10040) – ETA awarded a
contract for $882,100 to design a new education building and rehabilitate four
dormitories. There was no post award announcement in the contract file regarding the




                                                                       Job Corps Procurement Program
                                             10                           Report No: 04-08-003-01-370
                                                                    U.S. Department of Labor – Office of Inspector General


new contract award. A synopsis was not published in the FedBizOpps4 as required for
contracts awarded for more than $25,000 (which allows the public to view the contractor
chosen and to protest if necessary). FAR 5.301(a) - “Synopses of Contract Awards”
states, “CO must synopsize through the Government-wide Point of Entry awards
exceeding $25,000 that are likely to result in the award of any subcontracts.” The
contract was transferred to OASAM during the transfer of the Job Corps program from
ETA to OSEC. OASAM’s procurement personnel stated the contract specialist who was
assigned the case file overlooked this procedure. ETA’s and OASAM’s procurement
officials confirmed that the announcement was not published.

                                   OASAM CONTRACT DEFICIENCIES

OASAM could not demonstrate that it followed FAR guidelines and DOL procurement
procedures in awarding two contracts. We attributed the deficiencies to a lack of
management oversight and inadequate staff training. The deficiencies may have
prevented fair and open competition of contract awards, and services may not have
been obtained at a reasonable price.

Sole source contract lacked proper justification

McNeil Technologies, Inc. (Contract No. DOLJ079A25330) – OASAM awarded one sole
source contract for approximately $2.4 million citing “only one responsible source will
satisfy agency requirements,” even though Job Corps market research indicated that
there were 18 other capable contractors who could perform the work. The contract was
to provide continued support to the Job Corps’ National Call Center for a total of
$2,411,432. The contract period was April 16, 2007, through April 15, 2008. The PRB’s
recommendation for approval cited “only one responsible source will satisfy agency
requirements.”

FAR 6.302-1(i) states “supplies or services may be considered to be available from only
one source if the source has submitted an unsolicited research proposal that
demonstrates a unique capability.” The service requested under the contract did not
require a unique capability; therefore, the authority cited by PRB was not valid.

However, Job Corps officials attributed the necessity for the sole source contract to the
COTR who mistakenly processed the paperwork through ETA’s contract office instead
of through the new routing lines in OASAM’s Office of Procurement Services (OPS). In
addition, other delays in the award process made it impossible to compete the award
without a break in service. As a result, OASAM executed a sole source contract to
McNeil Technologies, Inc. to continue providing the services until such time that a
competitive award could be made.




4
 FedBizOpps – A single point of entry for Federal buyers to publish and for vendors to find posted Federal business opportunities
across departments and agencies

                                                                                            Job Corps Procurement Program
                                                               11                              Report No: 04-08-003-01-370
                                                  U.S. Department of Labor – Office of Inspector General


OASAM awarded a contract for $1.5 million without performing a current cost
analysis

Tribalco, LLC (Contract No. DOLJ079625632) – OASAM awarded a contract for
$1,527,930 without a current cost analysis. The contract was to assist the Job Corps
Data Center by adding two storage array units to the existing Storage Area Network.
There was no supporting documentation to indicate that a review of other providers’
costs for similar products was performed. In addition, the CO was not sure that a cost
analysis was needed. This indicated a lack of staff training on the requirements of FAR
and other DOL policies.

FAR - Subpart 15.403-3(a)(3) – “Requiring Information Other Than Cost or Pricing Data”
states “the CO must ensure that information used to support price negotiations is
sufficiently current to permit negotiation of a fair and reasonable price and information is
adequate for evaluating the reasonableness of the price or determining cost realism.”

Recommendations

We recommend that the Deputy Secretary of Labor ensure that:


   1. The Assistant Secretary for Administration and Management takes steps to:

        a) ensure management oversight of contract award and modification
        processing is conducted

        b) provide staff training to ensure federal acquisition and DOL procedures
        are appropriately followed.

   2. Agencies seek Procurement Review Board’s recommendation and Chief
      Acquisition Officer’s approval for ratification of an unauthorized commitment.

Job Corps Response

The National Director Job Corps stated that Job Corps had no response to the draft
report.

ETA Response

The Deputy Assistant Secretary for ETA acknowledged that ETA has areas of concern
in its contracting operations and stated that ETA was actively taking steps to improve its
performance. Last year, at the request of ETA, a management review of ETA’s
procurement function was conducted by OASAM. ETA is also emphasizing training not
only for the acquisition staff, but also for the offices being supported. All acquisition
personnel who have not taken the Federal Appropriations Law and advanced contract
administration training courses are being directed to take the classes.


                                                                       Job Corps Procurement Program
                                             12                           Report No: 04-08-003-01-370
                                                               U.S. Department of Labor – Office of Inspector General


OASAM Response

The Deputy Assistant Secretary for Administration and Management (DASAM) concurs
with the finding related to Tribalco, LLC. The DASAM stated that the CO should have
ensured that the cost analysis was in the contract file and that it was valid. However,
the DASAM disagreed with the finding for McNeil Technologies, Inc. and believes that
the CO took the appropriate actions under the Federal and DOL procurement rules to
execute the sole source action and to prevent a break in critical services. The DASAM
stated that the controlling consideration was not “unique capability.” Instead, this was a
situation in which there was only “one responsible source” – the incumbent – who could
perform the required work during the period necessary to complete a full and open
competition for the required Call Center services.

The DASAM concurs with the recommendations and stated that OASAM has
implemented an organizational change, effective August 2007, which created the Office
of Acquisition Management Services (OAMS) and placed increased emphasis on DOL’s
procurement policy/oversight function. OASAM has added resources to improve the
office’s ability to perform these functions, including training and oversight.

On September 19, 2008, OAMS completed a review of ETA’s procurement programs,
which included a number of recommendations for improvements and is awaiting ETA’s
propposed corrective action plan which is due by October 19, 2008. To close the
recommendatons, management will continue to provide oversight of contract awards
and modifications processing. In addition, early in the first quarter of FY 2009, the
Assistant Secretary for Administration and Management/CAO will issue a reminder to
DOL agencies about the appropriate reviews and approval for ratification of any
unauthorized commitments as required by DOL.

OIG Conclusion

We do not disagree with OASAM’s explanation regarding the McNeil contract and the
need to avoid a service disruption at the Job Corps National Call Center. However,
adequate planning and management oversight could have prevented this situation from
occurring.

Although the DASAM disagreed with one of our two findings, the DASAM agreed with
our recommendations. Therefore, our recommendations remain unchanged.

See Appendix D for the agencies’ complete responses to our draft report.5



Elliot P. Lewis

5
 Tabs 1 through 3 of OASAM’s response contain supplemental information to support OASAM’s primary response. Due to the
volume of those supporting documents, we have elected to not include those additional documents as a part of OASAM’s
response in Appendix D.

                                                                                     Job Corps Procurement Program
                                                          13                            Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                14                           Report No: 04-08-003-01-370
                U.S. Department of Labor – Office of Inspector General




Exhibits




                                     Job Corps Procurement Program
           15                           Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                16                           Report No: 04-08-003-01-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 1



                 JOB CORPS CONTRACTS
                   WITH DEFICIENCIES
            Contract               Contract         Initial Award
          Information              Issuing            Amounts
                                   Agency             including
                                                    Option Years
          Rand & Jones                   ETA            $5,784,887.00
         DOLJ051A20011
         Wu & Associates                 ETA              5,875,000.00
         AE-11793-01-20
         WCL Associates                  ETA              1,475,000.00
         AE-12072-02-15
     PB Dewberry DOL-11045-              ETA            57,367,955.00
             01-30
         McNeely Piggot                  ETA              1,793,000.00
         DOLFO41A0002
         Dubose & Assoc.                 ETA               882,100.00
         DOLJ041A10040
           MINACT Inc.                   ETA            37,487,758.00
           AE94014000
      Total Contract Costs                            $110,665,700.00
       McNeil Technologies           OASAM                2,411,432.00
        DOLJ079A25330
           Tribalco, LLC             OASAM                1,527,930.00
          DOLJ07962632
     Total Contract Cost                                $3,939,362.00


The figures above were rounded to the nearest dollar (7 ETA and 2 OASAM contracts).




                                                                Job Corps Procurement Program
                                    17                             Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                18                           Report No: 04-08-003-01-370
                  U.S. Department of Labor – Office of Inspector General




Appendices




                                       Job Corps Procurement Program
             19                           Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                20                           Report No: 04-08-003-01-370
                                                               U.S. Department of Labor – Office of Inspector General


                                                                                                      Appendix A
Background

Purpose of the Job Corps Program

Job Corps program assists eligible youth who need and can benefit from, intensive
programs in a group setting to become more responsible, employable, and proactive
citizens. Education, training, and support services are provided to students, ages 16
through 24 at Job Corps Centers (JCC). The program was appropriated nearly $1.6
billion in FY 2007 much of which was expended through contracts with private
companies. The contractors operate 94 centers nationwide; the Departments of Interior
and Agriculture operate another 28 centers via inter-agency agreements.

Secretary’s Order for the Transfer

On December 30, 2005, Congress issued Public Law (PL) 109-1496, effectively granting
Job Corps greater independence and opportunity for increased efficiency in
administering Job Corps program, and directed the Secretary of Labor to transfer the
Job Corps program from the Employment and Training Administration (ETA) to the
Office of the Secretary (OSEC) by March 30, 2006. This new law directed the Secretary
of Labor to transfer appropriated funds and the administration of the program to the
head of Job Corps, who will have contracting authority. The PL109-149 also provided
that Job Corps receive contracting support, as necessary, from the Office of Assistant
Secretary for Administration and Management (OASAM).

On March 23, 2006, the Secretary of Labor transferred the Office of Job Corps (Job
Corps) from the ETA to the OSEC. Within the OSEC, OASAM oversees the
procurement and contracting practices. The transfer of the Job Corps program was not
intended to alter the authorities, duties, or activities of Job Corps, as it existed under
ETA.




6
PL 109-149, dated December 30, 2005, Department of Labor, Health and Human Services, and Education and Related Agencies
Appropriations Act, 2006

                                                                                    Job Corps Procurement Program
                                                          21                           Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                22                           Report No: 04-08-003-01-370
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                      Appendix B
Objective, Scope, Methodology, and Criteria

Objective

What impact has the transfer of the Job Corps program from ETA to OSEC had on Job
Corps procurement and contracting practices?

Scope
We conducted a performance audit of Job Corps’ procurement process at the request of
the Secretary of Labor. Our audit focused on procurements made both before and after
the transfer of the Job Corps program from ETA to OSEC. We sampled 34 contracts
awarded between July 1, 2005, and September 30, 2007.

Fieldwork was conducted at Job Corps, ETA, and OASAM’s national offices in
Washington, DC. In addition, we conducted fieldwork in two regions, located in Atlanta,
Georgia and Dallas, Texas.

In planning and performing our audit, we considered OASAM’s internal controls over the
contracting functions and obtained completed OIG issued internal control surveys to
OASAM procurement groups, Office of the Chief Financial Officer, and the Electronic
Procurement System programmer, as well as reviewing policies and procedures and
interviewing key personnel. We gained an understanding of the data flows in each audit
area, verified the data on EPS versus the contract files, and found the data to be
sufficiently reliable. We documented a description of the controls. Our testing of
internal controls focused on the controls related to our objective of assessing
compliance with significant laws, regulations, and policies and procedures, and not on
the adequacy of internal controls overall. Weaknesses noted in our testing are
discussed in the results and findings of this report.

Methodology

To gain an understanding of the procurement process, we reviewed the FAR, DLMS,
and the OASAM Compendium for Job Corps procurement. We interviewed senior
officials and staff with ETA, Job Corps, and OASAM to gather additional information. To
ensure ETA and OASAM complied with Federal regulations and DOL policies and
procedures, we reviewed the 34 contracts against DLMS and the FAR requirements for
the processing of each contract according to the type, i.e. architect and engineering,
construction, media, or outreach and admission. In addition, to determine if all
procurement documentation was processed and included in the contract files as
required by FAR, we reviewed scoring sheets for each proposal, cost analysis
justifications, justification for sole source contracts, statement of work, contract offer
document with price, date and option years, appropriated funding section completion,
and modifications.




                                                                      Job Corps Procurement Program
                                            23                           Report No: 04-08-003-01-370
                                                  U.S. Department of Labor – Office of Inspector General


Contract Testing

To determine the impact of the transfer of Job Corps procurement practices, we
compared both ETA and OASAM procurement processes by reviewing 18 contracts that
were issued under ETA prior to the transfer and 16 contracts issued by OASAM after
the transfer. In addition, we interviewed the Job Corps National Director about her
contracting authority and the use of OASAM to perform contracting functions for Job
Corps. We obtained an understanding of OASAM’s internal controls as they relate to
the procurement process

Sampling Plans

Our sample consisted of 34 contracts, which included 18 ETA originated contracts, and
16 OASAM originated contracts.

To develop sampling plans as appropriate when planning substantive tests, we obtained
a universe of 278 ETA originated Job Corps contracts. We used Excel program
software to sort the list, removed duplicates, filled in missing information, and selected
the first sample of contracts. The contracts were drawn randomly from each region.
We limited our fieldwork to three regions, because the National Office and two regions
are the only sites to issue contracts in 2007. We selected 18 contracts from a statistical
sample for review. Three of the 18 contacts were regional contracts and the remaining
15 contracts were issued from the National Office.

We expanded our contract testing to compare ETA’s procurement process to OASAM’s
procurement process. We randomly selected 18 ETA contracts. We obtained a second
universe of 79 contracts originated by OASAM in 2007 and selected 16 contracts for
review. Two of the 16 were issued at regional level and the remaining 14 at the
National Office level.

Criteria:

We used the following criteria to perform this audit.

   •   DLMS 2, Chapter 800, Section 836 - Ratification of Unauthorized Obligation

   •   Federal Acquisition Regulations, issued March 2005 -Volume I, Subparts 1-53:

   •   Memorandum - Office of Job Corps from The Deputy Secretary - Job Corps
       Transfer Guidance

   •   OASAM Compendium for Job Corps Procurement – March 1, 2007

   •   Public Law 109-149 – Dec. 30, 2005 - 109th Congress, Depart of Labor
       Appropriations Act, 2006


                                                                       Job Corps Procurement Program
                                             24                           Report No: 04-08-003-01-370
                                                U.S. Department of Labor – Office of Inspector General


   •   The Secretary’s Order 9-2006 – Establishment of the Office of Job Corps within
       the Office of the Secretary; Delegation of Authority and Assignment of
       Responsibility to its Director and Others

   •   Title I Subtitle C - Job Corps - Public Law 105-220 August 7, 1998

Auditing Standards

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                                                     Job Corps Procurement Program
                                           25                           Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                26                           Report No: 04-08-003-01-370
                                                U.S. Department of Labor – Office of Inspector General


                                                                                     Appendix C
Acronyms and Abbreviations

A&E            Architectural and Engineering

CAO            Chief Acquisition Officer

CO             Contracting Officer

COTR           Contracting Officer Technical Representative

DLMS           Department of Labor Manual Series

DOL            Department of Labor

EPS            Electronic Procurement System

ETA            Employment and Training Administration

FAR            Federal Acquisition Regulation

NTP            Notice to Proceed

OASAM          Office of the Assistant Secretary for Administration and Management

OPS            Office of Procurement Services

OSEC           Office of the Secretary

PRB            Procurement Review Board

PL             Public Law




                                                                     Job Corps Procurement Program
                                           27                           Report No: 04-08-003-01-370
                     U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                          Job Corps Procurement Program
                28                           Report No: 04-08-003-01-370
                           U.S. Department of Labor – Office of Inspector General


                                                                Appendix D
Auditees’ Responses




                                                Job Corps Procurement Program
                      29                           Report No: 04-08-003-01-370
     U.S. Department of Labor – Office of Inspector General




                          Job Corps Procurement Program
30                           Report No: 04-08-003-01-370
     U.S. Department of Labor – Office of Inspector General




                          Job Corps Procurement Program
31                           Report No: 04-08-003-01-370
     U.S. Department of Labor – Office of Inspector General




                          Job Corps Procurement Program
32                           Report No: 04-08-003-01-370
     U.S. Department of Labor – Office of Inspector General




                          Job Corps Procurement Program
33                           Report No: 04-08-003-01-370
                                          U.S. Department of Labor – Office of Inspector General




Tabs 1 through 3 contain supplemental information to OASAM’s written response
to the draft report. Due to the volume of documents and the fact that this
information is presented as only support for the primary response, we have
elected to not include those documents as part of this attachment.


                                                               Job Corps Procurement Program
                                     34                           Report No: 04-08-003-01-370
                                         U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                                                              Job Corps Procurement Program
                                    35                           Report No: 04-08-003-01-370
